                      Data Transparency 2014
                 J.W. Marriott, Washington DC
                         September 30, 2014




 Oversight of
the DATA Act
A Treasury OIG
  Perspective
                                      Slide 1
              IG and GAO Oversight

IGs – 3 reviews
In consultation with the Comptroller General
 review a statistically valid sampling of the spending
   data submitted by the Federal agency
 submit to Congress and make publically available, a
   report assessing
   • completeness, timeliness, quality, and accuracy of
     the data sampled
   • implementation and use of Data Standards by the
     Federal agency

                                                    Slide 2
GAO – 3 reviews
After a review of IG reports
 submit to Congress and make publically available, a
  report assessing and comparing
  • data completeness, timeliness, quality, and
     accuracy of the data submitted by Federal agencies
  • implementation and use of data standards by
     Federal agencies




                                                   Slide 3
                          Timeline

                            Treasury/OMB
       DATA Act
                              Issue Data           1st IG Report
        Enacted
                              Standards

• May 9, 2014          • By May 2015         • By Nov 2016

        Federal                                   Treasury/OMB
     Agencies Start                                Ensure Data
                            1st GAO Report
      Using Data                                    Standards
       Standards                                     Applied
• By May 2017          • By Nov 2017         • By May 2018



                           2nd GAO Report         3rd IG Report
     2nd   IG Report
                                                 3rd GAO Report

• By Nov 2018          • By Nov 2019         • By Nov 2020 (IG)
                                             • By Nov 2021 (GAO)


                                                                   Slide 4
               Treasury OIG Audits

 Fiscal Service’s Standup of a Financial Management
  Transparency Office and Administration of
  USASpending.gov (start – March 2014)

 Treasury’s Implementation of the DATA Act (start –
  August 2014)
  • A series of audits
  • Determine the sufficiency of plans and actions
    taken to timely comply with the DATA Act


                                                  Slide 5
                  Looking Ahead
 Convene an IG Community Working Group to (initial
  thoughts):
  • Coordinate with GAO
  • Develop common audit approach
  • Develop tools for required analyses
  • Determine scope
  • Keep stakeholders informed




                                                 Slide 6
Data Transparency 2014
JW Marriott, Washington DC
September 30, 2014

Panel: Oversight of the DATA Act

Panel Members:

   Bob Taylor, Deputy Assistant Inspector General, Department of the Treasury
   Ali Ahmad, Senior Professional Staff, House Committee on Oversight and
       Government Reform
   Amy Edwards, Director, Government Performance Task Force, Senate Budget
       Committee
   Peg Gustafson, Inspector General, Small Business Administration
   Jason Miller, Federal News Radio (moderator)



                              Bob’s Comments

      Thank-you Jason and the Coalition. I appreciate the opportunity

today to represent Treasury Inspector General Eric Thorson and our

office on this important subject.

      Last Friday, I attended a Treasury town hall on the DATA Act

which featured a number of speakers from the transparency

community. The big take-away I had was that the community, and that

really is all of us, want and need not only more data, but good data, on

our government’s spending. Expectations are very high for the DATA

Act to finally deliver good data. I see IG oversight as critical to ensure

that happens.


                                       1
        In the next few minutes, I will cover IG and GAO oversight

requirements under the Act, then go over the timeline for performing

that oversight, and time permitting, discuss other related work

undertaken within Treasury by my office, and wrap up with the next

step in preparing for IG oversight.

        (Next Slide)

        Section 6 of the DATA Act, aptly named Accountability for

Federal funding, calls for IGs to conduct reviews and report to

Congress three times over the next 6 years on their respective

agencies’ spending data and use of the Data Standards to be issued by

Treasury and OMB. Under the Act, the three reviews are to be done in

consultation with GAO and are to include a statistically valid sampling

of spending data submitted to USASpending.gov. The IGs are to assess

the completeness, timeliness, quality, and accuracy of the sampled

data.

        (Next Slide)

        GAO likewise will report three times. After reviewing the IGs’

reports, GAO will assess the completeness, timeliness, quality, and

accuracy of data submitted by Federal agencies, and GAO will be


                                      2
looking at the agencies’ use of the Treasury/OMB Data Standards as

well.

        (Next Slide)

        So when are these IG and GAO reviews to occur? Well, the first

IG report is due 18 months after Treasury and OMB issue the Data

Standards. That would be November 2016 if things go as required, or

earlier if the Data Standards are issued early. The other two IG reports

are to follow 2 years apart; that would be in November 2018 and

2020. GAO’s reporting comes 1 year after each IG reporting cycle, so

GAO will be reporting in November 2017, 2019, and 2021.

        I do want to point out one anomaly in the above timeline that

presents a challenge. That is, you can see the latest date by which

agencies are to start submitting spending data is May 2017. However,

the first IG reports on spending data are due in November 2016, 6

months before agencies must start reporting. Obviously, this timing

anomaly will be something where we will need to engage our agencies

and our congressional stakeholders as we are not used to auditing

something that doesn’t yet exist. We do have our work cut out for us.




                                     3
     (Next Slide)

     While I’ve just discussed the mandated IG work under the Act,

our office, as the oversight agency for Treasury programs and

operations, has already initiated work to assess Treasury’s DATA Act

implementation activities in their early stages.

     As shown in the slide, we have two bodies of work currently in

progress. One audit actually preceded the DATA Act, and is looking at

Treasury’s standup of a Transparency Office and Treasury’s efforts to

improve USASpending.gov. Treasury assumed responsibility for this

much maligned website in February 2014.

     The second body of work is looking at Treasury’s plans and

actions to implement its responsibilities under the DATA Act, such as

developing the Data Standards. We intend to report periodically on the

status of those plans and actions.

     (Next Slide)

     Now to wrap up, I will discuss what we see as the next step for

the IG community at large. That is, we plan to convene a working

group to start tackling a number of areas. The slide shows a few of the

things the working group could undertake: things like consulting with


                                     4
GAO, developing a common audit approach, and keeping stakeholders

informed. We will be putting out a call for volunteers in November and

start work in early January. We’ve gotten a few volunteers already and

expect the interest to be very high.

     With that, I’d like to thank the audience for your attention.




                                       5
